NO. _________________

IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020

JUSTIN LANE FOUST,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF SERVICE

DEAN SANDERFORD, Assistant Federal Public Defender and a
member of the bar of the United States Supreme Court, attests that
pursuant to Rule 29, he served the Petition for Writ of Certiorari to the
United States Court of Appeals for the Tenth Circuit, and the
accompanying Motion for Leave to Proceed In Forma Pauperis, on counsel

for the Respondent by enclosing a copy of these documents in an envelope,
first-class postage prepaid and addressed to:
Elizabeth Prelogar
Acting Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001
and that the envelope was deposited in the United States mail, Denver,
Colorado, 80202, on July 30, 2021, and further attests that all parties
required to be served have been served.

/s/ Dean Sanderford
DEAN SANDERFORD
Assistant Federal Public Defender

